HHS/OIG, Audit -"Review of Medicare Same-Day, Same-Provider Acute Care Readmissions in Pennsylvania During Calendar Year 1998,"(A-03-01-00011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Same-Day, Same-Provider Acute Care Readmissions in Pennsylvania During Calendar Year 1998," (A-03-01-00011)
August 22, 2002
Complete
Text of Report is available in PDF format (465 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare payments made to acute care hospitals in Pennsylvania during
Calendar Year 1998 were appropriate for beneficiaries who were discharged and readmitted to the same hospital on the same
day.  Our review of same-day, same-provider readmissions found that 63 readmissions totaling $290,744 were billed
incorrectly because the beneficiary was either admitted to a non-acute care unit within the hospital or was never actually
discharged from the initial admission.  Our review also identified a methodology that involves minimal effort that
the Centers for Medicare and Medicaid Services could use to identify same-day, same-provider readmissions that are vulnerable
to billing errors nationwide.